        OIG
        OFFICE OF INSPECTOR GENERAL

                                  Catalyst for Improving the Environment



Audit Report




        Audit of Costs Claimed Under
        Construction Grant No. C530614-02
        (Carkeek Project) Awarded to
        King County Department of Natural
        Resources, Seattle, Washington

        Report No. 2003-2-00012

        June 30, 2003
      Report Contributors:                  Robert Adachi
                                            Lela Wong
                                            Melinda Burks
                                            Charles McCollum




Abbreviations

      CFR                    Code of Federal Regulations
      EPA                    Environmental Protection Agency
      grantee                King County Department of Natural Resources
      Metro                  Municipality of Metropolitan Seattle
      OIG                    Office of Inspector General
      PWC                    Proposed Work Change
      Region                 Environmental Protection Agency Region 10
      State                  Washington Department of Ecology
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                    WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL




                                          June 30, 2003

MEMORANDUM

SUBJECT:                 Report No. 2003-2-00012
                         Audit of Costs Claimed Under Construction Grant
                         No. C530614-02 (Carkeek Project) Awarded to King County
                         Department of Natural Resources, Seattle, Washington


FROM:                    Michael A. Rickey /s/
                         Director of Assistance Agreement Audits
                         Office of Audit

TO:                      L. John Iani
                         Regional Administrator
                         EPA Region 10


At your request, we audited the costs claimed by King County Department of Natural Resources
for the Carkeek project under EPA Grant No. C530614-02. The project period was from
September 22, 1989, to October 30, 1995.

The objectives of the audit were to determine whether:

       •   The costs claimed were eligible for Federal participation in accordance with the grant
           terms and conditions and consistent with 40 Code of Federal Regulations (CFR)
           35.2250;

       •   U.S. Environmental Protection Agency (EPA) program officials or their delegated
           State representatives, Washington Department of Ecology (State), have accepted the
           project as accomplishing the objectives of the grant; and

       •   The grantee adhered to the special conditions and fulfilled the material grant
           performance requirements.

This audit report contains findings that describe the problems the EPA Office of the Inspector
General (OIG) has identified and corrective actions the OIG recommends. This audit report
represents the opinion of the OIG and the findings contained in this report do not necessarily
represent the final EPA position. Final determinations on matters in this audit report will be
made by EPA managers in accordance with established audit resolution procedures.


Action Required

In accordance with EPA Manual 2750, you are required to provide a written response to this
report within 120 calendar days of the date of this report. We have no objections to the further
release of this report to the public. Please refer to the audit report number on all related
correspondence. We will be pleased to provide additional accounting counsel and audit services
which may be required in connection with this report and the implementation of our
recommendations. For your convenience, this report will be available at
http://www.epa.gov/oigearth/eroom.htm.

If you or your staff have any questions regarding this report, please contact me at
(312) 886-3037, Robert Adachi at (415) 947-4537, or Lela Wong at (415) 947-4531.
                                    Table of Contents
Independent Auditor’s Report . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Summary of Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Grantee Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4



 Appendices
         A         Construction Grant No. C530614-02: Carkeek Project
                   Schedule of Costs Claimed and the Results of Audit For the
                   Period September 22, 1989, to December 21, 1999 . . . . . . . . . . . . . . . . . . . 7

         B         Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

         C         Grantee Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

         D         Distribution . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
                       Independent Auditor’s Report
We have audited the final “Outlay Report and Request for Reimbursement,” dated December 22,
1999, submitted by the King County Department of Natural Resources (grantee) for the Carkeek
project (project) under EPA Grant Number C530614-02. The preparation of the outlay report is
the responsibility of King County’s management. Our responsibility is to express an opinion on
the “Outlay Report and Request for Reimbursement” based on our audit.

We conducted our audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States, and the United States generally accepted auditing
standards for “Special Reports.” These standards require that we plan and perform our audit to
obtain reasonable assurance that the costs claimed on the “Outlay Report and Request for
Reimbursement” are free of material misstatement. An audit includes examining, on a test basis,
evidence supporting the amounts and disclosures in the “Outlay Report and Request for
Reimbursement.” An audit also includes assessing the accounting principles used and significant
estimates made by management, as well as evaluating the overall claim. We believe that our
audit provides a reasonable basis for our opinion.

The “Outlay Report and Request for Reimbursement” was prepared by the grantee to report costs
and claim reimbursement under Grant No. C530614-02. This claim is not intended to be a
complete presentation of the grantee’s revenues and expenses.

In our opinion, except for the costs questioned in Appendix A, the “Outlay Report and Request
for Reimbursement” referred to above presents fairly, in all material respects, the eligible costs in
accordance with the terms and conditions of the grant and the applicable Federal and EPA
regulations. Details of our audit are included in the Summary of Results section and in
Appendix A.




                                                      Robert K. Adachi /s/
                                                      Assignment Manager
                                                      Field Work End: January 15, 2003




                                                  1
2
                Summary of Results

                    Category                        Amount
 Total Costs Claimed (Note 1)                     $14,030,576
 Less: Costs Questioned (see
       Ineligible                                     548,693
       Unsupported                                    154,460
       Total Questioned                              $703,153
 Eligible Costs (Note 2)                          $13,327,423
 EPA’s Share of the Eligible Costs (55              7,330,082
 percent) (Note 3)
 Less: Cumulative Amount Paid to the                7,691,440
 Grantee
 Amount Due EPA                                      $361,358


Note 1: Total costs claimed represent the total amount claimed by the grantee on
        the final “Outlay Report and Request for Reimbursement” submitted to
        the Washington Department of Ecology (State) on December 22, 1999.

Note 2: The eligible costs represent the total expenditures determined to be
        eligible for grant participation (amount claimed by grantee minus
        amounts questioned by OIG) in accordance with the grant terms and
        conditions, 40 Code of Federal Regulations (CFR) 35.2250, as well as
        determinations made by the State. Additional details are presented in
        Appendix A.

Note 3: EPA’s share of the eligible costs is computed by applying EPA
        participation of 55 percent to the total OIG-determined eligible costs.

The State has accepted the project as accomplishing the objectives of the grant.
The grantee, in general, adhered to the special conditions and fulfilled the material
grant performance requirements, with the exception of the requirement of
40 CFR 35.2212, which requires the grantee to expeditiously initiate and complete
the project. The grantee did not award some of the subagreements within
12 months of the grant award, which resulted in limitations on allowable costs.
This limitation is referred to as a construction lag penalty. The construction lag
penalty on these contracts were calculated by the grantee and accepted by the
State. The penalty was included in our computation of the grant eligible costs.




                                  3
Recommendations

         We recommend that the EPA Region 10 Administrator:

         1. Advise the grantee that the costs questioned of $703,153 are disallowed for
            grant participation.

         2. Obtain recovery of the $361,358 of Federal funds paid to the grantee in excess
            of the amounts determined to be allowable.


Grantee Response

         We issued the grantee a draft report on March 4, 2003. The grantee provided a
         response to the draft report on April 4, 2003. A copy of the grantee’s response is
         included as Appendix C of this report. An exit conference was held with the
         grantee on April 16, 2003. The grantee’s position is that $439,576 of the
         questioned costs should be considered eligible. The grantee’s responses and the
         OIG’s comment have been summarized in Appendix A.


Background

         The grant was awarded on September 22, 1989, to provide Federal assistance of
         $7,249,500 to the Municipality of Metropolitan Seattle (Metro) for construction of
         an interceptor system and pump stations to reroute water flows to the Carkeek
         Park Treatment Plan located in North Seattle, Washington, and to perform water
         quality monitoring activities. The $7,249,500 represents EPA’s 55 percent
         participation of the eligible project costs; the grantee was responsible for the
         remaining 45 percent. The grant was subsequently amended to increase the
         Federal share to $9,520,150. The State established October 30, 1995, as the cut-
         off date for the incurrence of costs. On January 1, 1994, Metro merged into King
         County. Metro became King County’s Department of Natural Resources,
         Wastewater Treatment Division, on January 1, 1996. The grantee submitted a
         request to the State on December 21, 1999, for final reimbursement of the
         remaining Federal share of the eligible project costs of $25,377. The State
         determined that the grantee had been overpaid by $174,221. As a result, a final
         unilateral grant amendment was made on December 6, 2002, to decrease to
         $7,691,440 the cumulative Federal assistance paid to the grantee as of December
         21, 1999.

         The State had sent a request to EPA Region 10 (Region) for a final audit of the
         project on May 15, 2000. The State had mentioned that the grantee did not
         provide supporting documentation (e.g., time cards, diaries, etc.) for costs
         incurred. The State had also questioned the adequacy and completeness of the

                                          4
grantee’s records and supporting documentation at administrative completion
time. The State was also concerned that the grantee revised its total costs
numerous times, changed the sales tax rates, and did not provide final balancing
change orders that adjusted estimated quantities to actual quantities. In addition,
the grantee had disagreed with the State’s determinations in various areas. The
State and the grantee had agreed and signed the final payment contingent upon an
audit to verify final eligible costs. As a result, EPA OIG had been requested to
audit the final claim.

To assist the reader in obtaining an understanding of the report, key terms are
defined below:

Costs Claimed          Program outlays identified by the grantee on the final
                       “Outlay Report and Request for Reimbursement”

Costs Questioned       Adjustments made by the OIG because the costs claimed
                       are unsupported (not supported by adequate documentation)
                       or ineligible (incurred and claimed contrary to a provision
                       of law, regulation, or grant terms and conditions).




                                 5
6
                                                                                     Appendix A

            Construction Grant No. C530614-02: Carkeek Project
            Schedule of Costs Claimed and the Results of Audit
          For the Period September 22, 1989, to December 21, 1999

                                         Costs Claimed   Ineligible   Unsupported
               Cost Category                                                      Reference
                                            (Note 1)       Costs         Costs
      Construction Cost
          W/F1-90 (interceptor)            $2,241,755     $93,156                  Note 2
          W/F51-91 (landscape)                324,547     229,517                  Note 3
          W/F3-92 (pump station)            7,431,031     124,810                  Note 4
          W/F2-90 (pipeline)                3,687,107       76,906                 Note 5
          W/F10-91 (civil preparation)        129,840       10,843                 Note 6
          Total Construction Costs        $13,814,280    $535,232
      Water Quality Monitoring               $216,296     $13,461       $154,460   Note 7
      Total Project Costs                 $14,030,576    $548,693       $154,460




Note 1:     Total costs claimed represent the total amount claimed by the grantee on the final
            “Outlay Report and Request for Reimbursement” submitted to the State on
            December 22, 1999.

Note 2:     Ineligible costs of $93,156 represent the difference between the amount claimed by
            the grantee of $2,241,755 and the eligible amount of $2,148,599 as determined under
            40 CFR 35.2550. Under 40 CFR 35.2550, EPA will determine the allowable project
            costs based upon the scope of the project, approved change orders, and the provision
            of 40 CFR, Subpart I, Appendix A.

            Based upon the State’s determination of August 3, 1990, and subsequent change order
            approvals, the eligible costs were determined to be $2,148,599. Details of our
            calculations are shown in the following table:




                                                   7
                      Description                           Amount
     Base Contract Amount                                  $2,315,252
     Less: Ineligible Base Contract Costs (a)                (224,132)
             Subtotal                                      $2,091,120
     Add : Change Orders                                       79,549
     Less: Ineligible Change Order Costs (b)                  (22,070)
     Total Allowable Construction Costs                    $2,148,599


(a) The ineligible base contract costs of $224,132 were based upon the
    August 3, 1990, determination that the project is grant eligible, with the exception
    of the following limitations on pavement restoration:

       Concrete pavement                    43,140 square feet
       Concrete curb                            4,178 lineal feet
       Asphalt-concrete pavement            37,078 square feet

   The $224,132 was computed based on actual quantities used on the project.
   Details of our computation are shown below:

                     Item Description                       Amount
     Concrete pavement                                    $131,086.92
     Grade prep for pavement                                49,288.68
     Concrete curb                                            3,710.00
     Concrete driveway 6"                                     4,119.20
     Concrete driveway 8"                                     3,922.32
     Concrete sidewalk 4"                                     7,817.55
     Concrete thick edge                                      7,201.50
      Total ineligible amount before sales tax            $207,146.17
     Sales tax (8.2 percent)                                16,985.99
     Total Ineligible Amount With Sales Tax               $224,132.16




Grantee Response

The grantee concurred with the costs questioned.



                                        8
(b) The ineligible change order amount of $22,070 was based on the State’s
    determination that the following Proposed Work Change (PWC) tasks were not
    part of the eligible scope of work:

       Change
                           Ineligible Tasks       Ineligible Amount
        Order
             3                 PWC 15                     $ 5,737.64
             4                 PWC 17                       5,240.00
             4                 PWC 18                         945.00
             4                 PWC 19                       8,475.00
      Ineligible amount before sales tax                  $20,397.64
     Sales tax (8.2 percent)                                1,672.61
     Total                                                $22,070.25


Grantee Response

The grantee concurred with the State’s determination on PWCs 15 and 18, but did
not concur with the determination on PWCs 17 and 19. The grantee stated that the
work completed under PWC 17 was not for rework as noted in the State’s letter
dated May 11, 2000. The PWC was for modifications to a catch basin shown in the
original scope of work. The catch basin scope of work was eligible for grant
participation in the base contract. The grantee considers modifications contracted
for in PWC 17 eligible for grant participation.

The grantee stated the work completed under PWC 19 was not an operation and
maintenance activity as noted in the State’s letter dated May 11, 2000. The PWC
was for modification to the sludge loading systems. The existing sludge loading
system required modification so that it could maintain operation during
modification to the treatment plant. The grantee’s position is that the modification
on the sludge loading system would not have been required if the grantee was not
making modification to the main Carkeek Treatment Plant. The grantee considers
modifications contracted for in this PWC eligible for grant participation.

OIG Comment

The OIG’s position remains unchanged. The ineligible costs are based on the
State’s change order approvals. No revision to the approvals has been made by the
State or the Region. As a result, the costs remain questioned. Also, the grantee has
raised technical issues that may require further evaluation by the State and the
Region during the resolution of the audit.




                                      9
Note 3:   Ineligible costs of $229,517 represent the difference between the amount claimed
          by the grantee of $324,547 and the eligible amount of $95,030 as determined under
          40 CFR 35.2550.

          Based upon the State’s determination of August 16, 1991, and subsequent change
          order approvals, the eligible costs were determined to be $95,030. Details of our
          calculations are shown below:

                               Description                       Amount
                Eligible Base Contract Amount (a)                    $97,060
                Eligible Change Orders                                    317
                    Total Eligible Construction Costs                $97,377
                Construction Lag Penalty                        97.59 percent
                Total Allowable Construction Cost                    $95,030


          (a) On August 16, 1991, the State determined that the only element of the contract
              eligible for grant participation was Bid Item B, up to 285,584 square feet (or
              31,731 square yards) of total asphalt pavement. Based on the contractor’s final
              progress payment, a lump sum amount of $97,060 was paid for Bid Item B,
              asphalt pavement.

             Subsequently, the State issued another determination on September 24, 1999, and
             stated:

                 Reference ineligible items as described in August 16, 1991 approval letter, and
                 construction lag.

             The only eligible item in the August 16, 1991, determination was for Bid Item B.
             However, the State’s September 24, 1999, letter stated that $315,377 was eligible
             for grant participation. No documentation supporting the $315,377 was available.
             Since the September 24, 1999, determination confirmed that only Bid Item B was
             eligible, only $97,060 can be allowed for grant participation.

             Grantee Response

             The grantee did not concur with our determination that only Bid Item B is eligible
             for grant participation. The grantee stated that the work was transferred from
             another contract in which the work was eligible for grant participation, therefore,
             the work should also be eligible in this contract. The grantee believes that the
             State’s September 24, 1999 determination to allow $315,377 (or $323,165 less
             construction lag penalty) for grant participation was correct and that this approval
             was incorporated in the close-out documentation submitted to the Region on
             October 12, 1999.

                                              10
             OIG Comment

             OIG maintains its position that the State’s original determination was made based
             upon the plans, specifications, and other relevant construction bidding
             information. The September 1999 determination also appears to affirm the
             original determination in terms of the allowable bid item.

Note 4:   Ineligible costs of $124,810 represent the difference between the amount claimed by
          the grantee of $7,431,031 and the eligible amount of $7,306,221 as determined under
          40 CFR 35.2550.

          Based upon the State’s determination on September 24, 1999, and change order
          approvals, the eligible costs were determined to be $7,306,221. Details of our
          calculations are shown in the following table:

                                Description                       Amount
                Base Contract Amount                             $7,358,682
                   Less: Ineligible Base Contract Costs (a)        (275,682)
                   Subtotal                                      $7,083,000
                Add: Change Orders                                  477,822
                   Less: Ineligible Change Order Costs (b)         (254,601)
                Total Allowable Construction Costs               $7,306,221


          (a) The grantee concurred with the determination on the ineligible base contract costs.
              Therefore, it is not necessary to include details regarding this amount.

          (b) The ineligible change order costs of $254,601 consist of the following:




                                               11
 Change                                                                     Ineligible
                                Ineligible Items/Tasks
  Order                                                                      Amount
    2       Construction management software                                 $5,288.21
    3       Clean-up of trail                                                 2,903.00
            Flood damage repairs and backhoe/op to support Seattle
    6
            Conservation                                                     12,472.00
    7       PWC 5 (aesthetic value)                                           1,166.00
    8       Gate valve installed for future connections to waterline            917.00
            Bar screen modifications costs increased due to grantee’s
    10                                                                       20,236.00
            changes
    12      PWC 49 (rework)                                                   2,025.00
    15      PWCs 56 and 76 (maintenance), and PWC 70 (rework)                45,733.00
    16      PWCs 75, 77, 80, and 81 (rework)                                  3,402.00
    18      PWC 42 (rework) and PWC 84 (maintenance/cleanup)                 31,186.00
    21      PWC 87 (rework and additional restroom)                           3,026.00
            Perimeter screening addition and east trail realignment
    22                                                                       76,582.00
            work
            PWCs 65 and 68 (outside the scope of work), and PWC 72
    23                                                                        5,560.00
            (rework)
            PWC 107A (east trail increased scope), PWC 108 (outside
    24                                                                       15,252.00
            the scope of work), and PWC 112 (rework)
            PWCs 110 and 114 (signage change and additional rock
    25
            for trail were outside the scope of work)                         2,119.00
                                                                            $227,867.2
 Ineligible amount before sales tax
                                                                                     1

 Sales tax (8.2 percent)
                                                                             18,685.11
                                                                            $246,552.3
 Total ineligible change order amount before construction lag
                                                                                     2
 Construction lag penalty (3.48 percent of eligible construction costs of
                                                                              8,048.18
 $213,742.35, plus sales tax of 8.2 percent)
 Total ineligible change order amount                                       $254,600.5



Grantee Response

The grantee did not concur with the ineligible determinations in connection with
change orders 12, 18, 21, 22, 23, and 24. A comparison of the grantee’s and the
State’s ineligible amounts for these change orders are shown in the following
table:

                                    12
      Change       Ineligible Per        Ineligible Per
                                                          Difference     Reference
       Order        the Grantee            the State
         12                 $0               $2,025         $2,025           (a)
         18               743                31,186         30,443           (b)
         21              2,800                3,026            226           (c)
         22                  0               76,582         76,582           (d)
         23              3,364                5,560          2,196           (e)
         24              7,217               15,252          8,035           (f)
       Total          $14,124              $133,631       $119,507


Reference (a). The grantee stated that the $2,025 for the work completed under
PWC 49 of Change Order number 12 was eligible for grant participation. The
work completed under this PWC was not for rework as noted in the State’s May
11, 2000, letter. The change was required to replace the pump impellers with a
full-size (not trimmed) impeller because the engineers discovered that the
impellers provided in the original design would not meet the system requirements.
The change was required to meet the design conditions for contract performance,
not for rework.

Reference (b). The difference of $30,443 was related to PWC 42. The grantee
explained that the work completed under this PWC was not a change in the scope
of work as noted in the State’s May 11, 2000, letter. The original contract had the
main tank collector system removed and replaced with a nonmetallic system. Part
of the original metal chain system was to stay in place. During construction, the
grantee realized that this metal chain would be exposed to the outside elements
because the new plant configuration would be for intermittent operations and tank
draining. This required an increase in the plant scope to provide for the proper
gear to be supplied to meet the project operating requirements. The grantee said
the State’s eligibility letter for this contract allowed the clarifier equipment to be
eligible for grant participation. This PWC was for a change from steel to plastic
chain because when the plant was not in a storm water mode, the originally
specified steel chain would deteriorate when exposed to open air condition. This
was a material change and not a change in scope of work, therefore, should be
eligible for grant participation.

Reference (c). The grantee agreed with the ineligibility of PWCs 87 and 90, but
did not concur with the amount associated with these tasks. The grantee believes
the total ineligible amount for PWCs 87 and 90 should be $2,800, not $3,026.

Reference (d). The grantee did not concur with the ineligibility determination of
$76,582. This amount was for PWC 102 (perimeter screening addition) and PWC


                                    13
107 (trail relocation). The grantee considers work completed under these PWCs
as allowable mitigation costs under 40 CFR 35, Subpart I, Appendix A
(Determination of Allowable Costs). Allowable mitigation costs include:

       B. Mitigation 1. Allowable costs include:
          b. The costs of site screening necessary to comply with NEPA
              (National Environmental Policy Act) related studies and facilities
              plan, or necessary to screen adjacent properties.

The grantee did not agree with the State’s May 11, 2000, determination that the
mitigation items were ineligible for grant participation. The grantee considers
both PWCs to be eligible for grant participation since the work was for plant
security, which is normally an eligible component in treatment plant construction.

The grantee stated that PWC 102 was for perimeter screening. The PWC revised
the scope of work to cover the removal of an existing fence. Plants were placed
on the south side of the treatment plant, providing screening from adjacent
properties, while also providing security for the south side of the plant. PWC 107
was for trail relocation needed when the access to the north end of the trail was
required. This issue was not addressed during initial design and was not a part of
mitigation. The trail had to be relocated on the south side of the stream to allow
for enough road alignment to the new access at the north end of the plant. This
change was required to maintain the scope of the original trail system that
previously existed.

Reference (e). The grantee did not concur with the ineligible amount of $2,196
under the change order. The grantee stated that the need for a location for the new
cabinets required rework of the available space and an adjustment to gear being
installed by the contractor. Since all equipment sizes are not known at the time of
the design, and the building space was existing, movements before installation
were required to make the necessary component systems fit in the available space.
The grantee considered the work eligible for grant participation.

Reference (f). The grantee did not concur with the ineligible amount of $8,035
under change order 24. The amount was related to PWCs 107A and 112. The
grantee stated that PWC 107A was an extension of PWC 107 in change order 22.
The extension was for the security fence encircling the treatment plant site which
is eligible for grant participation. PWC 112 was for the control strategy changes
made to match the operating characteristics of the variable frequency drives. The
control strategy needed to be adjusted to match the design requirements for
operating conditions. This was considered an adjustment to match specific
equipment needs found at startup time and is eligible for grant participation.




                                14
             OIG Comment

             The OIG’s position remains unchanged. The ineligible costs are based on the
             State’s change order approvals. No revisions to the approvals have been made by
             the State or the Region. As a result, the costs will remain questioned. Also, the
             grantee has raised technical issues that may require further evaluation by the State
             and the Region during the resolution of the audit.

Note 5:   Ineligible costs of $76,906 represent the difference between the amount claimed by
          the grantee of $3,687,107 and the eligible amount of $3,610,201 as determined under
          40 CFR 35.2550.

          Based upon the State’s determination of March 6, 1991, and subsequent change order
          approvals, the eligible costs were determined to be $3,610,201. Details of our
          calculations are shown in the following table:

                           Description                      Amount
           Base Contract Amount                            $4,065,579
           Less: Ineligible Base Contract Costs (a)          (475,401)
           Subtotal                                        $3,590,178
           Add : Change Orders                                275,962
           Less: Ineligible Change Order Costs (b)           (255,939)
           Total Allowable Construction Costs              $3,610,201



          (a) The ineligible base contract costs of $475,401 were based upon the State’s
              March 6, 1991, determination that seven tasks were ineligible. The actual amount
              the grantee spent on each of the bid items associated with these seven tasks is
              listed below:




                                                 15
                                              Unit         Ineligible       Ineligible
                Bid Item
                                              Price        Quantity         Amount
Mobilization                                               Lump Sum        $10,000.00
Rock Weirs-Sediment/Gravel                $1,000.00               13        13,000.00
SD Structure                              $2,478.55               13        32,221.15
SD Structure-8th Ave NW                   $2,478.55                  8      19,828.40
Concrete Pavement 9"                           $32.50          3,473       112,883.33
Concrete Driveway                              $31.50            320        10,080.00
Sidewalk                                       $14.70            862        12,671.40
Curb                                            $8.00          1,484        11,872.00
Temp Asphalt Patch                                         Lump Sum         27,000.00
Class B Asphalt                                $60.00            930        55,800.00
Asphalt-Treated Base                           $40.00          1,670        66,800.00
Replace HM Frame/Cover                        $293.20                5       1,466.00
BIdg. #6 Cement Conc. Pavement                 $55.00            250        13,750.00
BIdg. #7 Relocate Side Sewers                  $40.00            300        12,000.00
BIdg. #8 Furnish/Install 8" Water Line                     Lump Sum         40,000.00
Total ineligible costs before sales taxes                                 $439,372.28
Sales tax (8.2 percent)                                                     36,028.53
Total ineligible costs                                                    $475,400.81


   Grantee Response

   While the grantee concurred with how the State computed the ineligible costs,
   they did not agree with the inclusion of the total cost for the following five bid
   items as an ineligible cost under the base contract.

                                                            Ineligible    Ineligible
                    Bid Item                  Unit Price
                                                            Quantity       Amount
           Structure-8th Ave NW               $2,478.55          8        $19,828.40
        Class B Asphalt                           60.00        930         55,800.00
        Asphalt-Treated Base                      40.00      1,670         66,800.00
        Replace       Frame/Cover                293.20          5          1,466.00
                  Relocate Side Sewers            40.00        300         12,000.00
        Total                                                            $155,894.40




                                         16
   The grantee believed that only $90,064 of the five bid items were ineligible,
   consisting of:

                                                      Ineligible   Ineligible
                  Bid Item               Unit Price
                                                      Quantity     Amount
        SD Structure-8th Ave NW          $2,478.55         6       $14,871.30
        Class B Asphalt                     $60.00      827         49,620.00
        Asphalt-Treated Base                $40.00      580         23,200.00
        Replace HM Frame/Cover             $293.20         4         1,172.80
        BIdg. #7 Relocate Side Sewers       $40.00        30         1,200.00
        Total                                                      $90,064.10


   OIG Comment

   OIG’s position remains unchanged. The grantee needs to provide a
   determination from the Region or the State that supports the partial eligibility of
   the five bid items at issue or contradicts the March 6, 1991, determination.

(b) The ineligible change order amount of $255,939 included $71,793.62 (or
    $66,352.70 plus 8.2 percent sales tax) from change order number 3 for repair of
    the existing gravity sewer line. (Since the grantee only took issue with the
    $71,793.62, we are not providing details on the remaining portion.)

   Grantee Response

   The grantee did not concur with the determination that the $71,793.62 associated
   with PWC 8 of change order number 3 was ineligible. The grantee said the work
   completed under this PWC was not an operating and maintenance activity or
   repair to an existing line as noted in the State’s May 11, 2000, letter. The change
   order was for the cost of lining an existing sanitary sewer line. When the project
   was designed, the line was determined to be adequate for the needs of the new
   system requirements. However, during construction, when the line was exposed
   and a closer inspection was made, it was determined that the line was not
   adequate to meet the new system requirements. It was then determined that the
   liner would provide the necessary seals to provide a tight system for odor control
   originally included in the scope of work. The grantee considers modifications
   contracted for in this PWC eligible for grant participation.

   OIG Comment

   The OIG’s position remains unchanged. The ineligible costs are based on the
   State’s change order approvals. No revision to the approvals has been made by
   the State or the Region. As a result, the costs remain questioned. Also, the

                                    17
             grantee has raised technical issues that may require further evaluation by the
             State and the Region during the resolution of the audit.

Note 6:   Ineligible costs of $10,843 represent the difference between the amount claimed by
          the grantee of $129,840 and the eligible amount of $118,997 as determined under
          40 CFR 35.2550.

          Based upon the State’s determination of March 21, 1991, and subsequent
          determinations, the eligible costs were determined to be $118,997. Details of our
          calculations are shown in the following table:

                           Description                        Amount
           Base Contract Amount                              $254,315
           Less: Ineligible Base Contract Costs (a)          (145,512)
           Subtotal                                          $108,803
           Add : Change Orders                                  22,409
           Less: Ineligible Change Order Costs (b)            (12,215)
           Total Allowable Construction Costs                $118,997


          (a) The grantee concurred with the determination on the ineligible base contract
              costs. Therefore, it is not necessary to include details regarding this amount.

          (b) The ineligible change order costs of $12,215 consist of the following change
              orders:

                                        Change Order                          Amount
                                             1                                   $500.11
                                             2                                  4,897.14
                                             3                                 (3,222.47)
                                             4                                  9,449.87
               Total ineligible before sales taxes                            $11,624.65
               Sales tax (4.27 percent)                                           496.37
               Total ineligible construction costs before construction        $12,121.02
               lag
               Construction lag penalty (0.91 percent of the eligible              93.61
               change order amount of $9,866.21 plus sales tax of 4.27
               percent)
               Total Ineligible costs                                         $12,214.63




                                                 18
             Grantee Response

             The grantee did not concur with $2,869 of the $11,624.65 ineligible costs before
             sales tax and the construction lag penalty. The $2,869 is associated with PWCs 2
             and 3 under change order number 4, which the State determined to be ineligible.
             The grantee considers these tasks eligible for grant participation for the following
             reasons:

                 PWC 2 Item 1 ($1,008 plus sales tax) - This change was for the alignment
                 and extension of the sidewalk required to match the new face of the curb after
                 construction. The change was to restore the site to its original condition as
                 allowed by 40 CFR 35, Subpart I, Appendix A, Section D.1.d(3), thereby
                 costs should be eligible for grant participation.

                 PWC 2 Item 5 ($1,256 plus sales tax) - This change was for the alignment of
                 the guardrail to match the new face of the curb. The change was to restore
                 the site to its original condition as allowed by 40 CFR 35, Subpart I,
                 Appendix A, Section D.1.d(3), thereby costs should be eligible for grant
                 participation.

                 PWC 3 Item 4 ($605.39 plus sales tax) - This change was a requirement for
                 the city electrical utility to change the type of lid on the electrical handhold
                 box. The change was required by the utility and should be considered
                 eligible for grant participation.

             It should be noted that the grantee originally did not concur with $5,091.80 of the
             $11,624.65 ineligible costs in its response to our draft report. The grantee
             subsequently revised its position during a meeting with the OIG. The responses
             summarized above reflect the grantee’s revised position on this note.

             OIG Comment

             The OIG’s position remains unchanged. The ineligible costs are based on the
             State’s change order approvals. No revision to the approvals have been made by
             the State or the Region. As a result, the costs will remain questioned.

Note 7:   Costs questioned consist of ineligible costs of $13,461 and unsupported costs of
          $154,460.

          (c) The ineligible amount of $13,461 represents the difference between the claimed
              amount of $216,296 and the maximum allowable amount of $202,835 under the
              grant. Special Condition 20 of the grant required the grantee to establish and
              conduct a water quality testing program to measure and document water quality
              before and after construction of the project. The grant included $240,000 for the
              water quality survey. However, the grantee could only identify costs incurred of
              $237,234 for the water quality monitoring project. Under 40 CFR, Part 35,

                                               19
   Subpart I, Appendix A.H.2.h, the allowable water quality monitoring amount is
   limited to the amount allocable to the eligible portion of the project. Based upon
   the eligible construction percentage of 85.50 percent, the maximum allowable
   costs for water quality monitoring would be $202,835.

(b) The unsupported costs questioned consists of $23,850 of fringe benefit costs and
    $130,610 of non-force account costs.

   (i) Unsupported costs questioned of $23,850 represent the maximum allowable
       fringe benefit costs incurred in connection with water quality monitoring
       under 40 CFR, Part 35, Subpart I, Appendix A.H.2.h, as explained above.
       According to 40 CFR 30.500, the grantee is required to maintain records to
       identify amounts expended for the project. While we were able to verify the
       actual fringe benefit costs incurred, the grantee was unable to provide
       adequate explanations or documentation supporting the methodology used to
       allocate the fringe benefit costs to each cost objective. As a result, the
       maximum allowable fringe benefit costs of $23,850 are being questioned as
       unsupported.

   (ii) Unsupported costs questioned of $130,610 represents the maximum
        allowable non-force account costs incurred in connection with water quality
        monitoring under 40 CFR, Part 35, Subpart I, Appendix A.H.2.h, as
        explained above. The non-force account costs include Outside Temp, Other
        Professional Services, Outside Repair, Miscellaneous General Operating
        Costs, Lab Supplies and Contract Labor. These costs were paid through
        accounts payable. Due to the grantee’s record retention policy, all accounts
        payable records were routinely destroyed every seven years. As a result, the
        maximum allowable non-force account costs of $130,610 will be questioned
        as unsupported in accordance with 40 CFR 30.500.

   Grantee Response

   The grantee concurred with the costs questioned. The grantee will continue to
   search for the supporting documentation and will submit them during the audit
   resolution process.




                                   20
                                                                                    Appendix B


                          Scope and Methodology
The audit was conducted in accordance with Government Auditing Standards issued by the
Comptroller General of the United States, and auditing standards established by the American
Institute of Certified Public Accountants for “Special Reports” (SAS 62). These standards
require that we plan and perform our audit to provide reasonable assurance about whether the
“Outlay Report and Request for Reimbursement” is free of material misstatement. This requires
examining, on a test basis, evidence supporting the costs claimed. We also obtained a sufficient
understanding of the grantee’s internal control structure to determine the nature, timing, and
extent of tests to be performed to reach an opinion on the costs claimed. An audit also includes
assessing the accounting principles used and significant estimates made by management, as well
as evaluating the overall claim. We believe that our audit provides a reasonable basis for our
opinion.

The audit field work was performed between March 1, 2002, and January 15, 2003. We did not
perform any followup of prior audit reports. The following steps were performed to determine
whether costs incurred were eligible for grant participation:

   •   We reviewed the grant files at EPA Region 10 and the State.

   •   Eligibility was determined using the supporting documentation obtained from the State’s
       grant files:

       <   The grantee’s construction lag calculations dated June 21, 1994.
       <   The State’s various eligibility determination letters.
       <   The State’s letters describing approval of contract change orders.
       <   The State’s change order eligibility re-evaluation dated May 11, 2000.
       <   Bid approval for each of the construction contracts.

   •   We visited the grantee and obtained the following documents:

       <   Final progress payment for each of the construction contracts.
       <   Original claim, along with supporting spreadsheet, the grantee submitted to the State
           on December 21, 1999.

   •   We reconciled the grantee’s original claim, along with the spreadsheet supporting the
       claim, to Metro’s accounting system reports. This accounting system was eliminated
       when Metro merged with the grantee. Since we were unable to test the controls in the
       accounting system, we assumed maximum control risk and tested all transactions.

   •   We verified all progress payments against the payment vouchers and copies of the check
       to confirm actual payment to the contractors. To address the State’s concerns about the
       lack of balancing change orders, the final payment to each contractor was reviewed to

                                               21
       ensure that only the final unit quantities were reimbursed by the grantee. We also
       verified that no costs were incurred prior to the Notice to Proceed date and that all
       retention amounts were released to the contractors prior to the final claim.

   •   Construction lag penalty was then applied to the eligible amounts of the base contract
       and change orders for the following three contracts:

       Contract No.      Description                      Construction Lag
       W/F51-91          8th Avenue NW Landscape          97.59 percent
       W/F3-92           Pump Station                     96.52 percent
       W/F10-91          Civil Preparation                99.09 percent

   •   Sales tax was applied and added to come up with totals for each contract. The sales tax
       represents the actual average tax rate paid to the contractors. The State of Washington
       does not have sales tax exemption for Government contractors.

   •   The eligible water monitoring amount was computed by multiplying the eligible costs
       incurred by the ratio of eligible construction costs to total construction costs incurred.
       A random sample of the force account costs was verified to labor distribution reports,
       payroll input reports, and a few time sheets. The random sample was selected based
       upon a critical error rate and maximum risk rate of 10 percent.

Control Risks and Criteria

In planning and performing our audit, we considered relevant aspects of the internal control
structure to determine our auditing procedures. For these internal controls, we obtained an
understanding of the relevant policies and procedures during the period of the project.

We did not examine the accounting system because the system utilized during the project is no
longer in existence. Reports generated from the accounting system were used in the verification
of transactions, but no tests of the adequacy of the system were performed. As a result, other
than the water quality monitoring costs, we assumed maximum control risk and tested all
transactions for verification of payments. As explained above, only a random sample of the
water quality monitoring costs was tested.

For all tested transactions, we examined the source documents and performed other audit
procedures we considered necessary to gain an understanding of the grantee’s financial
management and contract administration controls. As criteria, we used 40 CFR, Parts 30 and
35; and Office of Management and Budget Circulars A-87 (Cost Principles for State, Local and
Indian Tribal Governments) and A-102 (Grants and Cooperative Agreements With State and
Local Governments). Our review did not disclose any material weaknesses in the grantee’s
financial management or contract administration systems.




                                                22
                   Appendix C


Grantee Response




       23
24
25
26
27
28
                                                                          Appendix D

                                   Distribution

EPA Region 10

   Grants Administration Unit
   Office of Water, Standards and Planning Unit
   Audit Followup Coordinator
   External Affairs Office


Headquarters Office

   Director, Grants Administration Division (3903R)
   Agency Audit Followup Coordinator (2724A)
   Associate Administrator for Congressional and Intergovernmental Relations (1301A)
   Associate Administrator for Communications, Education, and Media Relations (1101A)


Office of Inspector General

   Inspector General


Auditee

   King County Department of Natural Resources
   Wastewater Treatment Division




                                            29
